          •    Patent Office Building (POB) Exterior Renovation, valued at $9.7 million; and

          •    Museum of American History’s The Price of Freedom: Americans at War exhibit,
               valued at $8.7 million.

Project changes executed for the five projects in FYs 2003 and 2004 totaled $20 million.
Of this amount, we examined 25 changes2 totaling $14.2 million or 71 percent of the total
cost of the changes for the five projects.

BACKGROUND

The Smithsonian’s Office of Contracting (OCon) is the principal acquisition management
office for the Institution and is responsible for awarding and administering contracts for
renovations, repairs, and major construction of Smithsonian facilities. This responsibility
is shared with the Office of Facilities Engineering and Operations (OFEO), which
manages all facility-related programs and budgets. Within OFEO, the Office of Project
Management oversees revitalization and construction projects and assigns a Project
Executive to each major project to provide the day-to-day oversight of major construction
contracts.
OCon delegates limited contract administration authority to selected COTRs through a
delegation letter that delineates their commitment authority. The OCon delegation letters
for the POB Interior Renewal and NMAI projects limit COTR approval authority for
contract changes to $100,000. Changes exceeding this amount must be approved by
OCon before a Notice to Proceed3 can be issued to the contractor. OCon has not
delegated commitment authority to the COTRs for the POB exterior renovation, POF, or
PSR projects. All contract changes on these projects must be executed by OCon.
Evaluating contractor price proposals is a key aspect of administering contract changes.
When changes are proposed, contractors must prepare an itemized cost estimate. The
Institution then evaluates the contractor’s proposal to ensure the estimated cost is
reasonable. When the cost of a change is expected to be over $25,000, OFEO requires
COTRs either to obtain an Independent Government Cost Estimate (independent cost
estimate) before receipt of the contractor’s proposal or, if it is obtained after receipt of the
                                                                       4
proposal, to certify that the estimate was independently prepared. This certification
ensures that the preparer of the independent cost estimate is not influenced by the
contractor’s price proposal and that the Institution negotiates a reasonable price for the
work performed. If OFEO concludes that the contractor’s proposed costs are reasonable,
the COTR, together with the Project Executive and other OFEO staff, approve the

2
    Four of the changes were for the POB Exterior Renovation, 12 were for the POB Interior Renewal, 4 were for the POF project, 1 was
    for the PSR project, and 4 were for the construction of NMAI. We focused on the largest dollar changes for each of the five projects
3
    The Notice to Proceed is a formal notification to the contractor requesting the start of the work.
4
    This requirement is discussed in OFEO’s Construction Procedural Guidelines.




                                                                      2
proposal. The COTR then submits the change order package to OCon for final approval
and processing.


RESULTS IN BRIEF

Our audit disclosed that $2.4 million of the $14.2 million in change orders we sampled
was executed without prior written approval from OCon and in excess of the
commitment authority delegated to the COTRs. These issues appeared on four of the five
projects reviewed. Of this amount, $1.5 million5 was outside the $100,000 authority limits
of the COTRs for the POB Interior Renewal and NMAI projects. The remaining $0.9
million was attributed to the COTRs for the POF and POB Exterior Renovation projects,
who had not been delegated authority to make financial commitments for the Institution.
 In all cases where the COTRs exceeded the limits of their authority or acted without prior
written approval from OCon, COTRs submitted change requests to OCon after issuing
Notices to Proceed or other similar notifications to the contractors.

A summary of the changes that were executed without OCon’s prior written approval is
provided in the following table.

                  Value of Changes Exceeding Authority on Major Facilities Contracts
                                 During Fiscal Years 2003 and 2004
                                          ($ in millions)

                                                 Total         Number                         Number of             Value of
                                                 Cost             of           Cost of         Changes              Changes
                                  Total           of           Changes        Changes         Exceeding            Exceeding
                 Project         Changes        Changes        Sampled        Sampled         Authority            Authority
                                                                                         a
              POB Interior            162           $9.56          12             $9.30              2                     $.73
               Renewal

              NMAI                    309            8.72            4             3.80              1                     .72

              POF                      33             .67            4              .60              1                     .47

              POB Exterior             54             .97            4              .50             3                      .44
                Renovation

              PSR                     20              .09            1              .03             0                        0


              Totals                578           $20.01           25           $14.23               7                $2.36

          a
              One of the changes selected for review, a $5.3 million change on the Patent Office Building courtyard, was
              ultimately converted to a separate contract.

OFEO officials indicated that project changes were discussed and sometimes made at the
direction of senior management, who held monthly executive meetings. Therefore,

5
    The $1.5 million was associated with $13.1 million in changes executed by two COTRs.




                                                                         3
OFEO officials believed that the COTRs were not acting without authority in approving
project changes because they had the approval of senior management. COTRs explained
to us that although they knew they should seek OCon approval in advance, they did not
because OCon has been unable to respond timely, and they did not want to delay the
projects.

Although executives discussed project changes, these discussions do not substitute for a
technical review by an experienced contracting officer. Such a review ensures that tasks
proposed in the change order are not already covered in the original scope of the
agreement, and that contractors do not start work before funds are available. The Office
of Federal Procurement Policy’s A Guide to Best Practices for Contract Administration
states it is imperative that the COTR stay in close communication with the contracting
officer, relaying any information that may affect contractual commitments. Further,
Smithsonian Directive 115, Management Controls, requires that key duties and
responsibilities in authorizing agency transactions be separated among individuals to
ensure they do not exceed or abuse their assigned authorities.

OCon officials, although generally aware that OFEO COTRs were exceeding their
authority, did not enforce the delegations of authority and provided limited oversight of
contract changes. OCon officials told us they focus primarily on pre-award activities and
are not adequately staffed to oversee contracts once they are awarded. Consequently, they
find out about many contract problems well after they occur. OCon also does not have
access to OFEO’s project management information, which OFEO uses to track project
changes and budgets, and lacks its own capability to determine when changes are being
executed without its approval. Also, language limiting COTR authority in the POB
Interior Renewal contract differed from that in OCon’s delegation letter, causing
confusion about the scope of the COTR’s authority for that project.

When COTRs initiate contract changes outside their authority without prior written
approval from OCon, they expose the Institution to increased financial risks. These risks
arise because funds are not obligated in the Institution’s accounting system until after
OCon receives the change requests and, therefore, contractors may be directed to start
work before funds are available. As a result, the Institution, at times, had to advance
unrestricted Trust funds to the projects to cover the cost of the construction until funds
from a donor’s gift became available. Technical reviews of proposed changes also help to
ensure that related risks, liabilities, and excessive costs are identified before OFEO issues a
Notice to Proceed. We noted, with one exception, that the COTR on the NMAI project
had routinely consulted OCON prior to issuing Notices to Proceed. This is a best practice
that should be replicated on all of OFEO’s projects.

Our audit also disclosed that COTRs generally obtained the required independent cost
estimates when evaluating contractor change orders. However, $1.1 million of the
$14.2 million in changes sampled were executed without obtaining independent cost
estimates to determine the reasonableness of contractor cost proposals. As a result,
COTRs approved these changes without the information needed to strengthen their




                                              4
position in price negotiations with the contractors.

COTRs told us they had not independently evaluated all contractor price proposals
because the $25,000 threshold established for such evaluations generated a higher volume
of proposals needing independent cost estimates than was manageable. For example, in
FYs 2003 and 2004, about 100 changes over $25,000 were executed on the five projects
reviewed. To compound matters, OFEO had divided the responsibility for preparing the
estimates between COTRs and construction management companies. To address this
issue, in 2004, OFEO established a cost estimating group which is responsible for
developing all of the required independent cost estimates. This group should enable
OFEO to better manage the volume and quality of the independent cost estimates
required on cost proposals.

We recommended that the Director of OFEO:

    1. Ensure that changes are reviewed and approved by OCon in writing after senior
       management reviews the changes and prior to issuing Notices to Proceed.

    2. Work with OCon to have a contracting officer detailed to work on-site with
       COTRs from OFEO for large-scale projects, such as the construction of the
       Museum Support Center Pod 5, Patent Office Building interior renewal, and Asia
       Trail II.

We also recommended that the Director of OCon:

    3. Ensure that contract language delineating COTR commitment authority matches
       the limits specified in COTR delegation letters.

OFEO and OCon officials concurred with the recommendations and identified actions
planned for each recommendation as well as target dates for their completion. In
responding to the draft, the Director of OCon also took issue with statements made by
OFEO representatives that OCon’s staff could not respond timely to OFEO requests.




                                             5
RESULTS OF AUDIT

COTRs Made $2.4 Million in Changes Outside Their Delegated Authority

As set forth in individual contracts and COTR delegation letters, COTRs must obtain
prior approval from OCon before executing contract changes that exceed their
commitment authority. However, on four of the five projects reviewed, COTRs made
financial commitments for the Institution that exceeded the dollar limits of their
delegated authority by $2.4 million. The COTRs for the POB Interior Renewal and
NMAI projects executed $13.1 million in changes, of which $1.5 million exceeded the
limits of their authority. The COTRs for the POF and POB Exterior Renovation projects
made $ 0.9 million in commitments without having been delegated authority to modify
the project contracts. In all of these cases OCon did not perform a technical review or
provide written approval of the changes before COTRs issued Notices to Proceed to the
contractors.

COTRs for the POB Interior Renewal and NMAI Projects
Exceeded Their Delegated Authority Limits

COTRs for the POB Interior Renewal and NMAI projects were delegated authority for
modifications involving changes costing up to, but not exceeding, $100,000. Their
delegation letters required that changes exceeding $100,000 be reviewed and
countersigned by the Contracting Officer. However, on the POB Interior Renewal
project, the COTR approved two contract changes that were approximately $730,000 over
her delegated authority. On the NMAI project, the COTR executed a change order that
exceeded his delegated authority by $720,000. These actions are described below.

       Slate flooring for the POB Interior Renewal project. The COTR initiated a
       contract change involving slate flooring, issuing a Notice to Proceed for an
       amount not to exceed $521,000. The notice exceeded the COTR’s authority by
       $421,000. According to OFEO management, this change was discussed in a
       monthly executive meeting with OCon officials present. However, there was no
       technical review or approval of the change by a contracting officer before the
       Notice to Proceed was issued. The Project Executive subsequently was authorized
       to use contingency funds to cover the cost of the change, reducing the contingency
       fund to a low level.

       Glass break sensors and wireless conduit for the POB Interior Renewal
       project. The COTR issued a Notice to Proceed, which resulted in a contract
       change totaling $410,000 that was $310,000 above the COTR’s authorized
       commitment limit. OFEO management indicated this change did not require
       prior approval because it was originally part of the base contract. We found that




                                            6
             documentation referring to the base contract indicated that the original task was
             for installing security glass break sensors. However, the change order added
             raceways for wireless technology throughout the building. Because the change
             order represented a materially different task, we concluded that this change order
             also should have received advance written approval from OCon.

             NMAI fourth floor exhibit space. In November 2002, the COTR sent a Notice
             to Proceed letter to the contractor to begin the build-out of the NMAI fourth floor
             exhibit space. Although OFEO officials told us the Notice to Proceed letter
             authorized only the completion of shop drawings, a review of the letter disclosed
             that the contractor was instructed to implement the shop drawings that had been
             completed earlier. The cost of the work was not specified in the Notice to Proceed
             letter, but the contractor subsequently informed the COTR that he was proceeding
             with the work, which would cost $820,612. The change authorized by the COTR
             in the November 2002 Notice to Proceed exceeded his delegated authority by
             $720,612. This action occurred without OCon’s approval.

             Because the COTR did not coordinate this change with OCon, the Office of the
             Inspector General (OIG) was not able to review the cost proposal for
             reasonableness, which had been its practice on changes over $500,000. The OIG
             reviewed the proposal 10 months after the change was approved by the COTR and
             determined that the cost was overstated by $76,000.6 On a positive note, we found
             that the COTR on the NMAI project, with one exception, generally obtained
             approvals from OCon prior to issuing Notices to Proceed.

COTRs for the POF and POB Exterior Renovation Projects
Made Unauthorized Financial Commitments

Our audit also disclosed that COTRs for the POF and POB Exterior Renovation projects
approved changes even though they had not been delegated commitment authority. The
delegation letters for these projects expressly stated that “the COTR is not authorized and
shall not enter or execute any contract modifications involving a Supplemental
Agreement to the Contract; nor shall he otherwise affect a divestiture of the Smithsonian
Institution’s rights under any of the clauses of the contract.” However, we found that the
COTR for the POF project approved $465,192 in commitments on one change request,
and that the COTR for the POB Exterior Renovation made $443,604 in commitments on
three change requests, as discussed below.

             POF display cases. The COTR instructed the contractor to proceed with
             additional exhibit case work at a price of $465,192 without prior written OCon
             approval or the authority to make financial commitments on behalf of the
             Institution. OFEO’s managers stated that the exhibit cases were part of the
             original design-build contract and that the changes were needed to complete the
6
    This was the amount sustained by management based on questioned costs of $77,000 and unsupported costs of $35,000.




                                                                 7
       design to 100 percent. In our opinion, this change order constituted a significant
       change in the scope of work, which increased the cost of the original contract by
       almost 50 percent. The changes included not only additional and larger cases, but
       also benches, scenic treatments, artwork, railings, and lighting. OFEO staff also
       could not produce evidence that they had verified the availability of funding with
       OCon to pay for the additional work prior to instructing the contractor to
       proceed.

       POB exterior renovation project. The COTR on this project approved three
       changes totaling $443,604 without prior written OCon approval or the authority
       to make financial commitments on behalf of the Institution. These changes
       included the installation of window cleaning anchors for $199,867, scaffolding for
       $175,000, and cornice roof work for $68,737. Further, the COTR told us she
       instructed the contractor to proceed with work on these tasks based upon a letter
       which only confirmed the agreed-upon price. Instead, she should have followed
       OFEO procedures and issued a Notice to Proceed after obtaining written approval
       from OCon for this work.

During the audit we observed that COTRs did not consistently communicate with
contractors in accordance with OFEO procedures and were not always able to promptly
provide supporting documentation. For example, there were instances where COTRs did
not issue a formal Notice to Proceed letter and, as an alternative, issued other
documentation such as price confirmation letters. In another instance, an assistant to a
COTR, who did not have official delegated authority from OCon, issued a Letter of Intent
instead of a Notice to Proceed to a contractor requesting them to proceed with work on a
proposed change order. The contractor requested this letter prior to ordering
construction equipment and subsequently acquired the equipment based on the letter.
Further, the project files did not document that funding had been approved at that time.

Executive Approvals Substituted for Technical Reviews by OCon Staff

OFEO officials indicated that major project changes were discussed and sometimes
directed by senior management who held monthly meetings to review the status of
projects. As a result, they believed that COTRs were not acting without authority in
executing project changes because they had the approval of senior management.

Although executives discussed project changes, these discussions do not substitute for a
technical review by an experienced contracting officer to ensure that the task is not
already covered in the original scope of the agreement and that contractors are not
directed to start work before funds are available. The Office of Federal Procurement
Policy’s A Guide to Best Practices for Contract Administration states it is imperative that the
COTR stay in close communication with the contracting officers, relaying any
information that may affect contractual commitments. Further, Smithsonian Directive
115, Management Controls, requires that key duties and responsibilities in authorizing
agency transactions should be separated among individuals to ensure they do not exceed




                                              8
or abuse their assigned authorities.

COTRs explained to us that although they knew they should seek OCon approval in
advance, they did not because OCon has been unable to respond timely, and they did not
want to delay the projects. While each project differs, we noted that the COTR on the
NMAI project was able to obtain timely approval from OCon prior to initiating contract
changes, with one exception. Further, the COTR on the POB Interior Renewal project
believed that she was authorized to make changes in excess of her delegated authority
because the contract language gave her authority to issue instructions to contractors “if an
agreement is reached on price and/or time adjustment.” We note that the contract
language differed from OCon’s delegation letter, which limited the COTR’s authority to
$100,000.

In all cases where COTRs exceeded the limits of their authority or acted without prior
written approval from OCon, COTRs submitted change requests to OCon after changes
were executed. OCon officials were aware that COTRs, in some cases, were exceeding
their authority or acting without prior approval. OCon indicated that it did not always
enforce the terms of the delegations because it is not adequately staffed to oversee all
contracts once they are awarded. Staffing reductions in the past few years left OCon with
nine contracting officers to oversee $283 million in contract expenditures for FY 2004.
These reductions have increased responsibility for each contracting officer and resulted in
less direct oversight of the change approval process. For example, the contracting officer
for three of the five projects reviewed was the same person, and hundreds of changes were
made on these projects. The POB Interior Renewal project alone had over 112 contract
scope changes as of March 29, 2005.

The Director of OCon told us that as a result of growing work demands, his staff’s focus
has been primarily on pre-award activities. He also relinquished some of his contract
administration responsibility by letting COTRs issue the Notices to Proceed. We found
that COTRs took this one step further and began issuing confirmation letters on
contractor price proposals, which caused some commitments to be made without
advanced certification of available funding. OCon officials told us they generally find out
about contract problems well after they occur. OCon also does not have access to OFEO’s
project management system or its own capability to determine when changes are being
executed without its approval.

When COTRs initiate contract changes outside their authority, or without prior written
OCon approval, they expose the Institution to increased financial risks. These risks arise
because funds are not obligated in the Institution’s accounting system until after OCon
receives the change requests, and therefore contractors may be directed to start work
before funds are available. As a result, the Institution, at times, had to advance
unrestricted Trust funds to the project to cover the cost of the construction until funds
from a donor’s gift became available. Technical reviews of proposed changes also ensure
that the related contractual risks and liabilities are identified and that any needed audits
are performed before OFEO issues a Notice to Proceed, to protect the Institution from




                                              9
contractual risks, potential litigation, and excessive costs. We noted that the COTR and
Project Executive on the NMAI project had routinely consulted OCon prior to issuing
Notices to Proceed. This is a best practice that should be replicated on all of OFEO’s
projects.

Independent Cost Estimates Were Generally Available to Evaluate
Contractor Proposals

To ensure that the Smithsonian pays a fair and reasonable price for contract changes,
OFEO requires that COTRs obtain independent cost estimates for changes valued at
$25,000 or more. During our audit, OFEO was not able to readily provide many of the
independent cost estimates for the changes sampled. However, after briefing OFEO on
our audit results, they produced some of the estimates that were missing from the project
files. Consequently, we concluded that all but 3 of the 24 changes over $25,000 in our
sample had independent cost estimates as required. The three changes, valued at
$1.1 million, were executed without the information needed to negotiate the best prices.

Of the three changes that lacked independent cost estimates, two were for the POB
Interior Renewal project, and one was associated with the POF project.

     •     POB interior renewal project. We found two examples, totaling
           $610,000, where the COTR negotiated prices without obtaining independent
           cost estimates—$410,000 for improved wireless communications, and
           $200,000 for pre-planning of the POB courtyard construction. OFEO
           managers told us that no independent cost estimates were prepared because a
           portion of the $410,000 task had been part of the base contract. However, as
           previously discussed, the original task was for security glass break sensors,
           which we believe was a significantly different task from that of the wireless
           communications and thus required a separate independent cost estimate.

           OFEO management also indicated that the funding for the $200,000 task was
           provided by a general scope of work and contract allowance, and thus there
           was no need for an independent cost estimate. We do not agree that a contract
           allowance mitigates the need for an independent cost estimate.        The cost
           of several items included in this change order, such as long lead-time items,
           market-sensitive materials, travel, and technical expertise, should have been
           independently estimated.

     •     POF project. The COTR did not obtain an independent cost estimate for the
           additional display cases, benches, graphics, security, and railings, which totaled
           $465,000.

COTRs told us they did not obtain independent cost estimates for all changes over
$25,000 because the high volume of contract changes requiring independent cost




                                            10
estimates created an excessive workload. For example, in FYs 2003 and 2004, 102 changes
over $25,000 were executed on the five projects reviewed. Further, during this period
responsibility for developing the independent cost estimates was shared between COTRs
and external construction management companies. For much of our audit period,
OFEO’s construction procedures did not assign responsibility for producing the
independent estimates, and thus did not ensure accountability over this function. To
address this issue, in FY 2004 OFEO established a cost estimating group with
responsibility for producing all of the required independent cost estimates. Because this
group should enable OFEO to better manage the volume and quality of the independent
cost estimates, we have not made a recommendation on this issue. However, as part of
our planned FY 2006 audit of capital projects, we will determine whether independent
cost estimates are consistently prepared for the projects selected for review.

RECOMMENDATIONS

When COTRs initiate contract changes without prior written OCon approval, they expose
the Institution to increased financial risks because funds are not obligated in the
Institution’s accounting system until after OCon receives the change requests, and
contractors may be directed to start work before funds are available. To address this
issue, we recommend that the Director of OFEO:

    1. Ensure that changes are reviewed and approved by OCon in writing after senior
       management reviews the changes and prior to issuing Notices to Proceed.

    2. Work with OCon to have a contracting officer detailed to work on-site with
       COTRs from OFEO for large-scale projects, such as the construction of the
       Museum Support Center Pod 5, Patent Office Building interior renewal, and Asia
       Trail II.

We also recommend that the Director of OCon:

    3. Ensure that contract language delineating COTR commitment authority matches
       the limits specified in COTR delegation letters.




MANAGEMENT RESPONSE

Management officials provided formal written comments to our September 16, 2005,
draft report on September 26, 2005. All offices concurred with our analyses and
recommendations. Management officials identified actions planned for each
recommendation as well as target dates for their completion. By September 30, 2005, the
Director of OFEO will ensure that when change orders exceed the COTR’s authority or




                                           11
when the COTR has not been delegated authority to issue Notice to Proceed letters, the
Contracting Officer should co-sign the Notice to Proceed letters prior to them being
delivered to contractors. Also, the Director of OFEO and the Director of OCon agreed to
explore the feasibility of assigning a Contracting Officer on site for major projects by
February 1, 2006.

The Director of OCon agreed to correct the inconsistent contract language in the Patent
Office Building Interior Renewal Contract to complement the COTR’s limited delegation
of authority by October 31, 2005. In addition, contract language and written delegations
of authority to COTRs will be reviewed for consistency at the time of contract award. As
a final point, the Director of OCon took issue with statements made by OFEO
representatives that OCon’s staff could not respond timely to OFEO requests. The full
text of management’s comments is included in Appendix B.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s proposed actions are responsive to our recommendations, and we
consider the recommendations resolved. As part of our planned FY 2006 audit of capital
projects, we will assess the status of the implementation of our recommendations,
particularly the on-site assignment of Contracting Officers for major projects.




                                           12
APPENDIX A. OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The objectives of this audit were to determine whether COTRs were (1) exceeding the
authority delegated them by the Office of Contracting (OCon) to execute contract
changes, and (2) obtaining independent government cost estimates as a basis for
evaluating the cost of proposed changes.

SCOPE AND METHODOLOGY

To evaluate COTR compliance with delegations of authority from OCon and determine
whether COTRs obtained independent cost estimates as required by the Office of
Facilities Engineering and Operations (OFEO), we reviewed a judgmental sample of
25 contract changes made during FYs 2003 and 2004 on five major facilities contracts for
the

   •   Patent Office Building (POB) Interior Renewal,
   •   POB Exterior Renovation,
   •   Price of Freedom (POF) exhibit at the National Museum of American History,
   •   Public Spaces Renewal (PSR) at the National Museum of American History, and
   •   National Museum of the American Indian (NMAI).

The 25 changes were valued at $14.23 million and represented 71 percent of the
$20 million in changes made on the 5 projects during the 2-year period of our sample.
We selected our sample of 25 changes from the five projects that had the highest dollar
value changes. The sample included 12 changes from the POB Interior Renewal project,
4 from the POB Exterior Renovation project, 4 from the POF project, 1 from the PSR
project and 4 from the NMAI project.

To determine whether the COTRs were exceeding their authority, we reviewed the limits
on their authority stated in their letters of delegation from OCon and the contracts for the
five projects. We also determined whether COTRs obtained approval from OCon before
instructing the contractors to proceed with work by reviewing Notices to Proceed and
change requests and by interviewing the COTRs, contracting officers in OCon, and
contractor representatives.

To assess whether the COTRs were complying with OFEO requirements to obtain
independent government cost estimates, we examined the contract files for 24 of the
25 contract changes sampled that were over $25,000, and therefore, required independent
cost estimates. We also interviewed contracting officers in OCon, and OFEO COTRs and
Project Executives.




                                            13
We conducted the audit from November 2004 through September 2005 in accordance
with Government Auditing Standards as prescribed by the Comptroller General of the
United States and included tests of internal controls as were considered necessary.




                                          14
APPENDIX B: MANAGEMENT RESPONSE




                           15
APPENDIX B: MANAGEMENT RESPONSE




                           16
